 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


   AURUM INSTITUTE FOR HEALTH
RESEARCH DID NOT ALWAYS MANAGE
 PRESIDENT’S EMERGENCY PLAN FOR
   AIDS RELIEF FUNDS OR MEET
  PROGRAM GOALS IN ACCORDANCE
    WITH AWARD REQUIREMENTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                        August 2013
                                                       A-05-12-00021
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (the
2003 Act) (P.L. No. 108-25), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (the 2008 Act) (P.L. No. 110-293)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria.

The 2008 Act gives the Department of Health and Human Services (HHS), Centers for Disease
Control and Prevention (CDC) a leadership role in several key areas of research and evaluation
in implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other public health partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year 2009, CDC “obligated” PEPFAR funds totaling $1.2
billion. CDC awarded these funds through cooperative agreements, which it uses in lieu of
grants when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. The regulations that apply to Federal grants
also apply to cooperative agreements.

Through a 5-year cooperative agreement (grant number 5U2GPS000811), CDC awarded
PEPFAR funds totaling $19,460,289 to Aurum Institute for Health Research (Aurum) in South
Africa for the budget period September 29, 2009, through September 28, 2010. Aurum entered
into a cooperative agreement with CDC to implement a coordinated national response to the
HIV/AIDS epidemic. The goals of the cooperative agreement were to strengthen HIV/AIDS
prevention and treatment programs in small and medium enterprises and within health and
education sectors, in South Africa.

OBJECTIVE

Our objective was to determine whether Aurum managed PEPFAR funds and met program goals
in accordance with the award requirements.

SUMMARY OF FINDINGS

Aurum did not always manage PEPFAR funds or meet program goals in accordance with award
requirements. With respect to financial management, specifically financial transaction testing,
$868,822 of $2,559,427 reviewed was allowable and $1,690,605 was unallowable. Of the 42
financial transactions tested:


                                               i
   •   25 transactions totaling $868,822 were allowable and

   •   17 transactions totaling $1,690,605 were unallowable because they consisted of either
       obligated funds of a prior budget period or unobligated funds (6 of these 17 were also
       under funding restrictions).

Additionally, Aurum:

   •   inappropriately requested and received cash advances in excess of its immediate needs,

   •   did not maintain cash advances in interest bearing accounts, and

   •   did not accurately report PEPFAR expenditures for this cooperative agreement on its
       financial status report (FSR) submitted to CDC.

Our program management review showed that, of the 30 goals and objectives sampled from the
application for the cooperative agreement, Aurum did not report accomplishments related to 16
goals and objectives on the annual progress report.

Aurum’s policies and procedures did not address key financial and program management
functions to ensure that it:

   •   reported only allowable expenditures under the cooperative agreement and accurate costs
       on its FSR,

   •   made cash advance requests only for meeting its immediate cash requirements to carry
       out the purpose of the cooperative agreement,

   •   maintained cash advances in interest bearing accounts,

   •   submitted the annual progress report that included accomplishments related to all
       objectives that it had pursued under the award, and

   •   described in the annual progress report the reasons and other pertinent information about
       why certain established objectives were not completely met.

RECOMMENDATIONS

We recommend that Aurum:

   •   refund to CDC $1,690,605 of unallowable expenditures;

   •   file an amended FSR for the budget period of the cooperative agreement reviewed;

   •   develop and implement policies and procedures for:

       o reconciling the FSR to the accounting records prior to submission,

                                               ii
       o ensuring that it reports only allowable expenditures under the cooperative agreement
         and accurate costs on its FSR,

       o ensuring that cash advances are made only for its immediate cash requirements, and

       o ensuring that cash advances are maintained in interest bearing accounts;

   •   use the exchange rate in effect at the time it prepares the FSR;

   •   develop and implement policies and procedures for:

       o creating an annual progress report that addresses all goals and objectives related to
         the cooperative agreement and

       o ensuring that the annual progress report contains reasons and pertinent information on
         why it did not meet an established goal or objective.

AURUM COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

Aurum agreed with our findings but did not agree with all of our recommendations. Aurum did
not agree with our first recommendation to refund to CDC $1,690,605 of unallowable
expenditures. With regard to our second, third, and fifth recommendations, Aurum described the
actions that it had taken or planned to take to address them. Aurum did not comment on the
fourth recommendation to use the exchange rate in effect at the time it prepares its FSR. We
continue to recommend Aurum refund the unallowable expenditures and use the exchange rate in
effect at the time it prepares the FSR.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... .1

          BACKGROUND ........................................................................................................... .1
              President’s Emergency Plan for AIDS Relief .................................................... .1
              Centers for Disease Control and Prevention ...................................................... .1
              Aurum Institute for Health Research ................................................................. .2
              Federal Requirements and Departmental Policies ............................................. .2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... .2
               Objective ............................................................................................................ .2
               Scope .................................................................................................................. .2
               Methodology ...................................................................................................... .3

FINDINGS AND RECOMMENDATIONS .......................................................................... .4

          FINANCIAL MANAGEMENT .................................................................................... .5
               Federal Regulations and Notice of Award Guidance ........................................ .5
               Financial Transaction Testing ............................................................................ .6
               Financial Status Reports .................................................................................... .7
               Cash Advances Analysis .................................................................................... .7

          PROGRAM MANAGEMENT ...................................................................................... .8
              Federal Regulations and Funding Opportunity Announcement ........................ .8
              Progress Report Testing ..................................................................................... .9

          INADEQUATE POLICIES AND PROCEDURES ...................................................... .10

          RECOMMENDATIONS ............................................................................................... .10

          AURUM COMMENTS ................................................................................................. .11

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... .12

APPENDIX: AURUM COMMENTS




                                                                     iv
                                                 INTRODUCTION

BACKGROUND

President’s Emergency Plan for AIDS Relief

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (the
2003 Act) (P.L. No. 108-25), authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (the 2008 Act) (P.L. No. 110-293),
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria. The Department of Health
and Human Services (HHS) receives PEPFAR funds from the Department of State through a
memorandum of agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195),
as amended, and the 2003 Act, as amended.

Centers for Disease Control and Prevention

The 2008 Act gives HHS’s Centers for Disease Control and Prevention (CDC) a leadership role
in several key areas of research and evaluation in implementing HIV/AIDS programs, including
program monitoring, impact evaluation, and operations research. Through its Global HIV/AIDS
Program, CDC implemented PEPFAR, working with ministries of health and other public health
partners to combat HIV/AIDS by strengthening health systems and building sustainable
HIV/AIDS programs in more than 75 countries in Africa, Asia, Central and South America, and
the Caribbean.

For fiscal year (FY) 2009, CDC obligated 1 PEPFAR funds totaling $1.2 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it
anticipates the Federal Government’s substantial involvement with recipients in accomplishing
the objectives of the agreements. 2 In response to a Funding Opportunity Announcement (FOA), 3
CDC awarded Aurum Institute for Health Research (Aurum) grant number 5U2GPS000811
through a cooperative agreement for the project period September 29, 2008, through September
28, 2013.



1
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives (GPD) 1.02, the highest level of
policy within HHS that governs grants.

2
    The regulations that apply to Federal grants also apply to cooperative agreements.
3
 FOA Number CDC-RFA-PS07-706 is entitled: Strengthening Workplace Interventions in Small and Medium
Enterprises in the Republic of South Africa through Public-Private Partnerships under the President’s Emergency
Plan for AIDS Relief.



                                                            1
Aurum Institute for Health Research

Aurum, a nonprofit organization incorporated under the laws of the Republic of South Africa,
conducts health research, and care and treatment for tuberculosis and HIV. Aurum entered into a
cooperative agreement with CDC to implement a coordinated national response to the HIV/AIDS
epidemic. The goals of the cooperative agreement were to strengthen HIV/AIDS prevention and
treatment programs in small and medium enterprises (SMEs) 4 and within health and education
sectors, in South Africa.

Federal Requirements and Departmental Policies

The grant rules in 45 CFR part 92 apply to State, local, and tribal governments. The grant
administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals, institutions of
higher education and commercial organizations. The HHS Grants Policy Statement (GPS),
which provides general terms and conditions and HHS policies for grantees and others interested
in the administration of HHS grants, specifies that foreign grantees must comply with the
requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign organization (GPS II-
113). Thus, the grant administration rules in 45 CFR part 74 apply to a foreign nonprofit
organization.

This cooperative agreement was subject to the grant administration rules in 45 CFR part 74 and
the terms and conditions detailed in the notice of award (NOA). Furthermore, CDC incorporated
by reference the FOA and the application that CDC received from Aurum on May 26, 2009, as a
part of this award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Aurum managed PEPFAR funds and met program goals
in accordance with the award requirements.

Scope

Our audit covered the budget period from September 29, 2009, through September 28, 2010.
This budget period was the third year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded Aurum $19,460,289.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at Aurum’s offices in Johannesburg, South Africa, from January through February
2012.




4
 Section I of the FOA refers to companies with 20 to 50 employees as small enterprises and 50 to 200 employees as
medium-sized enterprises.


                                                        2
Methodology

To accomplish our objective, we:

      •    reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
           Aurum’s policies and procedures;

      •    interviewed and conducted meetings with CDC South Africa officials to determine the
           extent of the technical assistance they provided to Aurum;

      •    interviewed and conducted meetings with Aurum officials to determine their processes
           and procedures related to financial accounting and reporting, and program goals and
           accomplishments;

      •    reconciled to its accounting records Aurum’s financial status report (FSR) 5 for the budget
           period under review;

      •    selected and reviewed a judgmental sample of 42 financial transactions with expenditures
           totaling $2,559,427 from the grant award of $19,460,289 and included expenditures
           such as:

               o restricted funds, if specified on the NOA;

               o unallowable costs, such as indirect costs, if specified on the NOA;

               o transactions above or below the average transaction amount in an expenditure
                 category;

               o consulting fees; and

               o other unusual transactions;

      •    reviewed accounting treatment of value-added taxes (VAT) 6 that Aurum paid;

      •    compared HHS’ cash advance 7 payments that were listed in Aurum’s bank statements to
           the expenditures recorded in Aurum’s financial records;

5
  Pursuant to 45 CFR §74.52(a)(1)(iv), FSRs are due to the CDC Grants Management Office 90 days after the end of
the budget period. FSRs provide information to CDC on current expenditures and on carryover balances (if any). In
addition, these documents are considered in future funding decisions.
6
    VAT is a form of consumption tax.
7
  Pursuant to 45 CFR § 74.22, HHS primarily uses two methods of payment to award recipients: (1) the cash
advance method under which HHS will make payments to the recipient for meeting immediate cash requirements of
the recipient in carrying out the purpose of the approved program or (2) the reimbursement method under which
HHS will make payments to the recipient within 30 days after receipt of the billing from the recipient. Aurum was
paid under the cash advance method.


                                                        3
    •    compared the accomplishments described in Aurum’s annual progress report to the
         cooperative agreement’s goals and objectives; 8 and

    •    selected a judgmental sample of 30 goals and objectives described in Aurum’s
         application for the cooperative agreement and reviewed supporting documentation to
         determine whether Aurum met program goals and objectives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATIONS

Aurum did not always manage PEPFAR funds or meet program goals in accordance with award
requirements. With respect to financial management, specifically financial transaction testing,
$868,822 of $2,559,427 reviewed was allowable and $1,690,605 was unallowable. Of the 42
financial transactions tested:

    •    25 transactions totaling $868,822 were allowable and

    •    17 transactions totaling $1,690,605 were unallowable because they consisted of either
         obligated funds of a prior budget period or unobligated funds (6 of these 17 were also
         under funding restrictions.) 9

Additionally, Aurum:

    •    inappropriately requested and received cash advances in excess of its immediate needs,

    •    did not maintain cash advances in interest bearing accounts, and

    •    did not accurately report PEPFAR expenditures for this cooperative agreement on its FSR
         submitted to CDC.




8
 Goals and objectives were listed in the application for the cooperative agreement that Aurum submitted to CDC
and CDC incorporated the application as a part of the award.

9
 Funding restriction or restricted cost is a cost for which additional information is needed or additional requirements
must be met by the recipient prior to spending or engaging in any activity associated with that funding (CDC
guidance titled Grantee’s Financial Reference Guide For Managing CDC Grants & Cooperative Agreements
(December 2004), page 6). Available online at
http://www.cdc.gov/dash/grants_mgt/docs_pdfs/GranteesFinancialReference.pdf. Accessed on May 22, 2013.


                                                          4
Our program management review showed that, of the 30 goals and objectives sampled from the
application for the cooperative agreement, Aurum did not report accomplishments related to 16
goals and objectives on the annual progress report.

Aurum’s policies and procedures did not address key financial and program management
functions to ensure that it:

     •   reported only allowable expenditures under the cooperative agreement and accurate costs
         on its FSR,

     •   made cash advance requests only for meeting its immediate cash requirements to carry
         out the purpose of the cooperative agreement,

     •   maintained cash advances in interest bearing accounts,

     •   submitted the annual progress report that included accomplishments related to all
         objectives that it had pursued under the award, and

     •   described in the annual progress report the reasons and other pertinent information on
         why certain established objectives were not completely met.

FINANCIAL MANAGEMENT

Federal Regulations and Notice of Award Guidance

A recipient must charge to the grant only allowable costs resulting from obligations that the
recipient incurred during the budget period and any pre-award costs 10 authorized by HHS (45
CFR § 74.28). “Obligations” mean the amounts of orders placed, contracts and grants awarded,
services received, and similar transactions during a given period that require payment by the
recipient during the same or a future period (§ 74.2). Recipients must maintain accounting
records that are supported by source documentation (§ 74.21(b)(7)), and recipients must
promptly refund any balances of unobligated funds 11 that HHS has advanced or paid and that are
not authorized to be retained by the recipient for use in other projects (§ 74.71(d)).




10
  CDC requires its pre-approval to claim pre-award costs unless the pre-award cost is incurred within 90 days
before effective date of the initial budget period of a new or competing continuation award (CDC guidance titled
Grantee’s Financial Reference Guide For Managing CDC Grants & Cooperative Agreements (December 2004)).
11
  Unobligated funds or unobligated balances are the portion of the funds authorized by the HHS awarding agency
that has not been obligated by the recipient and is determined by deducting the cumulative obligations from the
cumulative funds authorized (45 CFR § 74.2). See footnote 1 for the definition of obligated funds.



                                                         5
The NOA provides that, restricted funds shall not be withdrawn until the restrictions 12 have been
removed by an amended NOA. CDC guidance titled, Grantee’s Financial Reference Guide For
Managing CDC Grants & Cooperative Agreements (December 2004) (the guidance) provides
that, if there are restricted costs stated in the NOA for the budget period under review, and the
restriction has not been removed by the CDC, restricted costs should be included in the
unobligated balance on the FSR. The guidance also states that CDC’s prior approval must be
obtained for carryover of unobligated funds from one budget period to another.

Financial Transaction Testing

Of the 42 transactions totaling $2,559,427 that we reviewed, 25 transactions totaling $868,822
were allowable but 17 transactions totaling $1,690,605 were unallowable. (See Table 1.)

                        Table 1: Unallowable Financial Sample Transactions

                                                             Unallowable
                          Category                           Transactions               Total

        Obligated During Prior Budget Period:
                     Administrative Costs                          1                         $11,661
                     Services Costs                                9                         122,853

        Not Obligated:
                     Administrative Costs                           2                        139,486
                     Laboratory Costs                               2                        139,487
                     Labor Costs                                    2                        418,459
                     Major Items Costs                              1                        858,659
        Total                                                      17                     $1,690,605

For 10 sample transactions associated with payments for administrative and service costs, Aurum
reported obligations of a prior budget period as expenditures of the budget period under review.
For these sample items, Aurum received invoices in October and November of 2009 (fiscal year
2010) from health care providers for services (such as antiretroviral therapy visits, counseling
and testing, and wellness visits), which they had provided from January through September of
2009 (fiscal year 2009). Aurum made payments for these invoices in October and November of
2009 and recorded the payments as expenditures for the month in which it made payments.

For 7 sample transactions associated with the remaining administrative, labor, laboratory, and
major items costs, Aurum could not provide documentation showing that Federal funds were

12
  Funding restriction or restricted cost is a cost for which additional information is needed or additional
requirements must be met by the recipient prior to spending or engaging in any activity associated with that funding
(CDC guidance titled Grantee’s Financial Reference Guide For Managing CDC Grants & Cooperative Agreements
(December 2004), page 6). Available online at
http://www.cdc.gov/dash/grants_mgt/docs_pdfs/GranteesFinancialReference.pdf. Accessed on May 22, 2013.)



                                                         6
obligated before the end of the budget period under review. Aurum received cash advances from
HHS for these sample transactions and recorded the cash advances in its accounting records as
provision for future expenditures. Aurum officials stated that it received items and services
related to these sample transactions in the subsequent budget period and made payments after
receiving the items and services. In addition, CDC had placed and not removed a restriction on 6
of these 7 sample transactions associated with administrative, labor, and laboratory costs. CDC
placed the restriction within the NOA because the objectives that Aurum had submitted to CDC
included data collection and possible research 13 activities involving human subjects; 14 however,
Aurum had not submitted required protocols 15 describing the mechanisms for the handling of
human subject research.

Financial Status Reports

A grantee’s financial management reporting system must be able to demonstrate an accurate,
current, and complete disclosure of financial results of grant funded activities in accordance with
financial reporting requirements of the grant (45 CFR § 74.21(b)(1)). Pursuant to the GPS
(Section II-114), financial reports must be stated in U.S. dollars using the currency rate in effect
at the time of submission.

The FSR that Aurum submitted did not agree with its accounting records. Aurum used Microsoft
Excel spreadsheets to convert its cooperative agreement transactions recorded in the South
African Rand into U.S. dollars to create the FSR. The FSR was not accurate because of errors
made while recording converted amounts on the spreadsheet. As a result, Aurum overreported
expenditures on the FSR for the cooperative agreement by $5,462. Additionally, Aurum did not
use the applicable exchange rate in effect at the time it prepared the FSR. Instead, it used a
standard exchange rate factor of 7.5 rand to $1. When the recipients submit inaccurate FSRs,
neither the recipient nor the awarding agency can properly manage the awards.

Cash Advances Analysis

Cash advances to a recipient must “be limited to the minimum amounts needed and be timed to
be in accordance with the actual, immediate cash requirements of the recipient … in carrying out
the purpose of the approved program or project. The timing and amount of cash advances shall
be as close as is administratively feasible to the actual disbursements by the [grantee]” (45 CFR

13
  The term “research” means a systematic investigation, including research development, testing and evaluation,
designed to develop or contribute to generalizable knowledge (45 CFR 46.102(d)).
14
  The term “human subject” means a living individual about whom an investigator conducting research obtains: (1)
data through intervention or interaction with the individual, or (2) identifiable private information (45 CFR
46.102(f)).
15
  We are using the term “protocol” to mean the recipient’s written assurance explaining how it will comply with the
Federal requirements for safeguarding the welfare of human subjects about whom it is conducting the research.
Basic HHS policy for recipients for safeguarding the welfare of human subjects are provided in 45 CFR part 46,
subpart A. Federal funds administered by a department or agency cannot not be expended for research involving
human subjects unless the requirements of this subpart is satisfied by the recipient (45 CFR §46.122).



                                                         7
§ 74.22(b)(2)). Recipients must maintain advances of Federal funds in interest-bearing accounts
unless the recipient meets one of the regulatory exceptions. 16)

Cash advances that Aurum received were not always tied to its immediate cash needs.
(See Table 2.)

                             Table 2: Examples of Excessive Cash Balances

          Date Aurum                 Cash Advance               Earliest Possible         Number of Days
         Received Cash                Amount                   Date That Aurum              That Aurum
          Advance 17                                              Used Cash 18               Held Cash
         October 2, 2009              $1.08 million19          February 22, 2010         At least 143 days
        November 5, 2009              $0.69 million20          February 22, 2010         At least 109 days

The examples presented in Table 2 show that Aurum requested cash in excess of its immediate
needs and carried the balance for lengths of time much greater than necessary. 21 Aurum
frequently requested and received cash advances without considering the unused balance of
previous advances. These two examples also assume that the costs Aurum reported were
actually incurred for the cooperative agreement in the recent grant period.

In addition, Aurum did not maintain the cash advances in interest-bearing accounts, as required.

PROGRAM MANAGEMENT

Federal Regulations and Funding Opportunity Announcement

Pursuant to 45 CFR § 74.51(d)(1), progress reports should contain a comparison of actual
accomplishments to the objectives established for the period. Also, progress reports should
contain the reasons that any established objectives were not met and additional pertinent


16
  A recipient is exempt from the requirement that the advances of Federal funds be maintained in interest bearing
accounts if: (1) the recipient receives less than $120,000 in Federal awards per year, (2) the best reasonably
available interest bearing account would not be expected to earn interest in excess of $250 per year on Federal cash
balances, or (3) the depository would require an average or minimum balance so high that it would not be feasible
within the expected Federal and non-Federal cash resources (45 CFR § 74.22(k)).

17
     This is the date on which the cash advance arrived in Aurum’s bank account.
18
  This is the date of expenditure in the financial records. Actual date of payment for the expenditure could be on
the same date or at a later date.
19
     This cash advance was part of a total cash advance of $2 million that Aurum received on October 2, 2009.
20
     This cash advance was part of a total cash advance of $1.55 million that Aurum received on November 5, 2009.
21
  Cash requests or drawdowns are electronically initiated through the HHS’ payment management system which is
administered by the HHS’ Division of Payment Management, Program Support Center.



                                                           8
information, including, when appropriate, analysis and explanation of cost overruns or high unit
costs.

Additionally, the FOA states that Aurum should have measurable outcomes that are in alignment
with the performance goals. 22

Progress Report Testing

Of the 30 objectives that we sampled from Aurum’s application for the cooperative agreement,
the progress report addressed accomplishments for 14. Although Aurum had documentation
supporting all 30 objectives, it did not address the remaining 16 in its progress report
(See Table 3.)

                     Table 3: Progress Report Accomplishments Summary

                             Objectives                               Sample Transactions

       Fourteen Reported In the Progress Report:
                    Completely Accomplished                                       2
                    Partially Accomplished                                       12
       Sixteen Not Reported in the Progress Report:
                     Completely Accomplished                                      4
                     Partially Accomplished                                      12
       Total                                                                     30

Of the 14 objectives that were addressed in the progress report, 2 were completed and 12 were
only partially completed. Although Aurum encountered some difficulties during the year and
discussed them in their progress report, they did not specifically state which of the established
objectives were affected by the difficulties. For example, Aurum stated that it had difficulty in
hiring staff members who were willing to relocate to remote areas, but it did not describe which
objective was affected by this staff relocation difficulty.

Of the 16 objectives that the progress report did not address, 4 were accomplished but 12 were
only partially accomplished. For example, Aurum stated in its application that it would train 360
nurses in counseling and HIV testing during the year. However, documentation supported
training for only 269 nurses.




22
  Section IV of the NOA—Special Terms and Conditions—makes the requirements found in the FOA part of the
award by reference.


                                                    9
INADEQUATE POLICIES AND PROCEDURES

Aurum’s policies and procedures did not address key financial and program management
functions to ensure that it:

   •   reported only allowable expenditures under the cooperative agreement and accurate costs
       on its FSR,

   •   made cash advance requests only for meeting its immediate cash requirements to carry
       out the purpose of the cooperative agreement,

   •   maintained cash advances in interest bearing accounts,

   •   submitted the annual progress report that included accomplishments related to all
       objectives that it had pursued under the award, and

   •   described in its annual progress report the reasons and other pertinent information on why
       certain established objectives were not completely met.

RECOMMENDATIONS

We recommend that Aurum:

   •   refund to CDC $1,690,605 of unallowable expenditures;

   •   file an amended FSR for the budget period of the cooperative agreement reviewed;

   •   develop and implement policies and procedures for:

       o reconciling the FSR to the accounting records prior to submission,

       o ensuring that it reports only allowable expenditures under the cooperative agreement
         and accurate costs on its FSR,

       o ensuring that cash advances are made only for its immediate cash requirements, and

       o ensuring that cash advances are maintained in interest bearing accounts;

   •   use the exchange rate in effect at the time it prepares the FSR; and

   •   develop and implement policies and procedures for:

       o creating an annual progress report that addresses all goals and objectives related to
         the cooperative agreement and




                                                10
       o ensuring that the annual progress report contains reasons and pertinent information
         about why it did not meet an established goal or objective.

AURUM’S COMMENTS

Aurum agreed with our findings but did not agree with all of our recommendations.

Aurum did not agree with our first recommendation to refund to CDC $1,690,605 in unallowable
expenditures. Aurum stated that the transactions listed by OIG auditors arose due to
administrative non-compliance on reporting in the correct time periods. Aurum proposed to re-
state and resubmit the FSRs for the budget period under review and its prior and subsequent
budget periods. Aurum commented separately on ten transactions related to obligations of the
prior budget period and seven transactions related to unobligated funds, which were reported as
expenditures on the FSR for the budget year under review.

In addressing the obligations of a prior budget period reported as expenditures during the budget
period under review, Aurum stated that the invoices were partially for services rendered in the
prior budget period. Aurum also stated that, in the normal course of events, it would report these
costs as obligated but unliquidated in the FSR of the prior year. Aurum stated that an obligation
to pay only arises on submission of an invoice and approval of that invoice by Aurum. It also
stated that an obligation to pay does not arise on mere provision of service because that service
may be outside of the service level conditions and thus not be allocable to the grant. Aurum
cited sections of Office of Management and Budget Circular A-122 (Circular A-122),
Attachment A, to argue that the costs are otherwise allocable and allowable, except for the fact
that they were incorrectly reported. Aurum also stated that it should have used the 90 day post
award period to make the necessary corrections to the FSR. Aurum proposed that the
appropriate remedy would be to restate the FSRs for the two budget periods to correctly
apportion this otherwise allowable expense.

In addressing the unobligated funds claimed as expenditures of the budget period under review,
Aurum stated that it mistakenly drew down cash from the restricted balance for six transactions
and it was unaware of any mechanisms to repay the money. Aurum also stated that these funds
were not actually spent but rather incorrectly reported as spent, and that it did not spend any
funding until the restriction was removed after the necessary protocol approvals were obtained.
Regarding the remaining one transaction, Aurum stated that it erred by not reporting in
accordance with U.S. regulations, and proposed to make an application in retrospect for a
carryover of the amount. For all seven transactions, Aurum proposed to restate and resubmit
FSRs for the budget period under review and the following budget period.

With regard to our second, third, and fifth recommendations, Aurum concurred with our findings
and described the actions that it had taken or planned to take to address them. Aurum did not
comment on the fourth recommendation to use the exchange rate in effect at the time it prepares
its FSR.

Aurum’s comments, excluding six appendices, are included in the appendix.




                                               11
OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the explanations and documentation that Aurum provided. Where a grant award
specifies a funding period, a recipient may only charge to the award allowable costs resulting
from obligations incurred during the funding period and approved pre-award costs. Restating
and resubmitting the FSR alone could not correct the fact that Aurum expended grant funds of
the budget period under review to cover obligations incurred in a different budget period or
reported unobligated funds as expenditures, in violation of federal regulations and HHS grants
policy. Aurum characterizes the improper expenditures as the result of a reporting problem, but
the facts do not support such an interpretation. Therefore, we continue to recommend that
Aurum refund $1,690,605 of the unallowable expenditures. We also continue to recommend that
Aurum use the exchange rate in effect at the time it prepares the FSR.




                                              12
APPENDIX
                                                                                                        Page 1 of 18


                                    APPENDIX: AURUM CO l.\.1l.VIENTS
                                                                                                  ...,.,..,... 

                                                                                                       ........ 

                                                                                     lbf Rioge., 29 Q.leem ROiiCI

                                                                                                  .........."9 

                                                                                               5oull'l NriGa 2001

                                                                                                PoSIHet suitesoo
                                                                                             Pm'-¥e Bag X30500
                                                                                                  ~2041
    lliEAUBUM                                                                                        SOUIIA!i:a
     IN S T IT U T E_
                                                                                        let · 27 (0)10500 1301
                   NPC                                                                 fax: •21 (0) 86561) 7585
    Reg~!Otl~. 1~
                  ~1~"PP                                                       vleOsCe: W~WW.aunn'linttitut&.«g

26 June 2013

Ms Sheri L. Fulcher
Regional Inspector General for Aud~ Services
Office of the Inspector General
233 North Michigan, Su~e 1360
Chicago, IL
Un~ed States



Dear Ms Fulcher

RESPONSE TO DRAFT REPORT: A-05-12-00021

The Aurum Institute (Aurum) is grateful to the Centers for Disease Control and Prevention (CDC) and
the Office of the Inspector General (OIG) for the opportunity to respond to and comment on this d raft
-~ reporL
We have responded to each of tile findings and recommendations raised in the draft report and have
indicated our concurrence or otherwise as to each finding, set out explanations and comments, and
proposed corrective actions accordingly. This comprehensive response is attached hereto.

We demonstrate in this response that the transactions listed by the OJG auditors arise due to
administrative non-compliance on reporting in the correct time periods, which can be remedied by
oorrecting the relevant Financial Status Reports (FSRs) with the assistance of the SA Extramural
Office and t he Procurements and Grants Office of the CDC.

Aurum has a solid history of responsiveness to the direction and guidance of the CDC in aU
programmatic and reporting matters as well as a firm commitment to the principles of good
governance. We would hope that this convnitment to the goals of the P EPFAR programme and
willingness to strengthen governance by every means will give the CDC comfort to agree to the
remedial actions proposed in this response.

Yours sincerely


           11
        /. 't"1~-7.,,
              '
                  ''/1/
                     : /1

              1 II ;;,J.IL·i
                               I
                               /;
     j 1/},&1?
         ''i// ft'~
          I
                  /
l   .--·-
    '.•"\.");rJ•;;4 :.::."'­


Dr David A Clark
Deputy CEOIPrincipallnvestigat«
                                                         Page 2 of 18




             AURUM INSTITUTE
             OIG REPORT RESPONSE

         Report Number: A4lS-12~




Plain block texr ;s the original DIG report wording. 


Text in robles and boxes reflects Aurum's response. 

                                                                                                Page 3 of 18




                                   EXECUTIVE SUMMARY



Transactional Findings

Aurum conc;urs w ith the findings of the OIG auditors. We have provided detailed and
a.uurate explanation for the transactions as well as supporting dowmentation for our
aaions. W e demonstrate in this response that the transactions listed by the OIG auditors
arise due to administrative non-«tmpliance on reponing in the correct time periods~ which
can be remedied by oorrecting the relevant Financial Status Reports (FSRs) w ith the
as.sistanc;e of the SA Extramural Offic.e and the Prowre:ments and Grants Offic.e of the CDC.
Our applic;ation of int ernational acc;ounting reporting standards rather than US Grant
Regulations partialty acc:ounts for us reporting in tne incorrect time periods.




Programmatic; Findings

Aurum conc;urs with the findings of the OIG audit ors. We have already implemented the
rec:ommended correctNe actions to imprm~e aGtivity reportiog as is e.,;denc;ed in the
dowmentation we have provide<l below.




Policy and Procedure Findings

Aurum roncurs with the findings of the OIG auditors. We have already implemented: the
reoommended corrective actions and developed the nec;es.sary poricies and proudures as
is evidenc:ed in the doc:umentation we have provided below.




Re«Mn~tions


Althougt"l these errors are signifiCant from a reporting perspective. they were made in
good faith w ith res pea: to the programmatic objec..tives of PEPFAR in South Africa. We
soughtto prevent that the funds were disbursed wastefully or in abuse of the PEPFAR
objtmves. In thit light- we request to wrrm the fininctiil reponing and prQCI'im
approval in order to reaifythe errors since repayment of this amount would not best
serve the interests of PEPFAR and should not be nec:es.sary.
                                                                                                                                               Page 4 of 18




                                                                       AURUM •
               :TO THE   The Aurum                                              ' for Disea"' Control .               '(COCiand tl>e
AUDIT REPORT             Offic;.e of the InspectorGeneral tOIG) for the opportunity to respond to th.is draft audit report 01nd the
                         opportunity to learn to improve its reporting stewardship of US Federal funds.

                         Ln a spirit of transparency and ali£nment to the principles of the audit. all the fi nancial issues in t his report
                         were brougtltto the attention of the OtG auditors right up front when the audit rommeooed rather than
                         being disrovered during the audit prous:s. We were able t o provide detailed and aGWrate explanation for
                         the transaaions as well as supporting dowmentation for out actions.

                         We inoorrectty took comfort as to our compliance by r etying on the outcomesof previous funder-sanctioned
                         reviews (e.c. Foreign Organization System (FOS} Review. June 2007. Feb 2011; GovernmentAccountability
                         Office {GAO) Review. Dec 2008] aswell a:s our own internal and external auditing processes. Ourapplic:ation
                         of international accounting reporting standards rather than US Grant Regulations partialty auounts for us
                         reporting in the inoorrect time periods.

                         We demonstrate in tbis response that the transactions listed by the OIG a uditors arise due to administrative
                         non~mplianc.e on reporting in the correct time periods, whid't can be remedied by oorrecting the relevant
                         Financial Status Reports (FSRs) with the as.sistan<:e of the SA Extramural Offi<:e and the Procurements and
                         Grants Offic.e of the CDC.

                         Aurum llas a solid history of responsiveness to the direction and guidanc.e ofthe CDC in all programmati<:
                         and r eponing matters as wen as a firm commitment to the principles of good govemanc:e. We woukl hope
                         that this <:ommitment to the goals of the PEPFAR progranwne and willin,gness to strengthen govemanc:.e by
                         every means will give the CDC c.omfort to acree to the remedial actions proposed in this response.
                                                                                                                                                                   Page 5 of 18




DETAIL OF ANDINGS- RNANOAL MANAGEMENT

Financial Transaction Testing

Of the 42 transactions totalling $2,.559,427 that we reviewed, 2S transactions totalling $868,822 were allowable but 17 transactions totalling $1,690,605
were unaUowable. {See Table 1.)

For 10 sample transactions associated wit h payments for administrative and service costs, Aurum reported obligations of a prior budget period as
expenditures of t he budget period under review.

For these sample items, Aurum received invoices in October and November of2009 (fiscal year 2010) from health care providers for services {such as
antiretroviral therapy visits, counselling a nd testing, a nd we Une.ss visits), which they had provided from Ja nuary t hrough September of 2009 (fisca l yea r
2009). Aurum made payments for these invoices in October and November of 2009 and recorded the payments as expenditures for the month in which it
made payments.

For 7 sample transactions associated with the remaining administrative, labour, la-boratCMY, and major rtems costs, Aurum could not provide documentation
showing that Federal funds were obligated before the end of the budget period unckor review. Aurum received cash advances from HHS for these sample
transactions a nd recorded the cash advances in its accounting records as provision for future expenditures. Aurum officials stated that rt received items and
services related to these sample transactions in the sllbsequent bodget period and made payments after receiving the items and services.. In addition, CDC
had placed a nd not removed a restriction on 6 ofthese 7 sampte transactions associated with administrative, labour, and tabotiltory costs. CDC ptaced the
restriction within the NOA because the objectives that Aurum had s ubmitted to CDC included data colle ction and possible research activities involving
human subjects; however, Aurum had not submitted required protocols desaibing the mechanisms forthe handling of huma n subject research.
                                                                                                                                                         Page 6 of 18




Category                 I
                         UnaU~ble
                         Tr01nsactJons
                                         I
                                         Total          Aurum M01 nagement Comments


ONI!ated DuriiM Prior 8udqt Period:

Adm i nistrative Costs         1              511,661   CONCUR - The payments relate to the prior budget period but were reported in the budget
Services Costs                 9             5122,853   period under review. None:1heles5 w e submit they are valid expenses in the programme

                 TOTAL        10
                                             --­
                                             5134,514
                                                        context.

                                                        .Q IMMARV OF PROPO.~F"O MAAFc:TlON!
                                                        Whilst we will mate every effort to prevent a recurrence of this reporting non~mplianc.e~ we
                                                        propose that the CDCgive consideration to permittine a rorrection in terms of US GAAP 250 or
                                                        any other appropriate regulation to aJIO'w Aurum to:

                                                           .    restate and re-submit the FSRs for the budget period ullder review and the prior
                                                                budget period

                                                        in orderto properly and aocuntety reflect the REPORTING of c:orrect expenditure in ead\
                                                        budget period.


                                                        AlllO transactions relate to a pair of invoices rec:eived from a singJe supplier~
                                                                   a family practioner network that was contracted to provided HJV treat ment and care
                                                        seJVices. The two invoic;es were dated in the year under review (19 October and 7 December
                                                        2009 - See Appendix 1) but were partially for services rendered in the prior budget period.
                                                        They were only rec:eived. approved and proc:.essed in tne budget period under review. ln the
                                                        normal GOUrse of events we wouJd report these costs as obligated but unliquidated in the FSR
                                                        of the prior year. However., this would only be possible if we knew of the obligation and had
                                                        approwd it as allocable t o the grant.
                                                                                                       Page 7 of 18




Our practise arrangements with general practitioners {the suppliers in this instance) are thatan
obligation to pay only arises on submission of an invoice AND approval of that invoice by
Aurum. An oblfgation to pay does not arise on mere provision of service sinGe that service may
be outside of the servk.e level ronditions and thus not be aUocable to the grant.

Notwithstanding that some of the services rendered took plac:e in year 2 ofthe grant, we
rec:eived the invoice, reviewed and approved it in year 3 of the grant, which is the budget
period being audited. In terms of the r egulat:K»ns relating to a llocation of costs [Circular A-122
Attachment A. Al(a)(c)(d)(e)(g)) we would argue that the costs are otherwise a l ocabJe and
allowable., but for the fact t hat they were jMQCnstty rgpprred. Nonetheless we should 1\ave
used the 90 day post award period to make the necessary corrections to the FSR.

The expenses relate to the GP program, the <:ontinuum and nature ofwhich was consistent
from year 1 to year 5 of the grant. The continuity of patient care bears this out.

1. 	 The total spend of USD 134.514 equates to 0.796 of the year 3 total grant award of
    USD 19,460,289.
2.. 	 This vendor had an administrative problem whk.h resulted in delayed invoices being
      submitted to Aurum. This problem was identified at a meeting held between Aurum and
      the vendor, ontyafter the year 2 of the grant award had ended.
3. 	 Aurum coukl not raise an acuual as it was dependent on the vendor to provide the invoi(;e
      related. information.
4. 	 Aurum onty raised and paid the invoices conumed after performing a verifiQtion of such
      related' invoius.

We submit that the matter is one of difference in interpretation of the timing ofthe
transaaions and has in no way been prejudicial to the project or overall grant period. We
propose that the appropriate remedy will be to restate the FSRs for the two budget periods to
correct:ty apportion this otherwise allowable expense.

Aurum will review and strengthen its policy of raising ac;cruals for open purchase orders in
                                                                                                                                                   Page 8 of 18




                                              order thatgrant expenses i na med are rorrectly re<;orded in the right FSR.


l l d n l li . . ...



Administrative Costs           2   $139,486   CONCUR The expenses relate to the followinc budget period (year4 of the grant) but were
                                              reported i n the budget period (year 3 of the grant) under review. However, the issue is one of a
Laboratory Costs               2   $139,487   reporting error only as the restricted fundswere sequestered.

Labour Costs                   2   $418,4$9   SUMMARY OF PROPOSED CORRECTION:
                                              Whilst we will make f!!!l«y ·effort to prevent a rewrrence of this reporting non-compliance. we
                       TOTAl   6
                                   --­
                                   $697,432   propose that the CDCgive consideration to permitting a oorrection in terms of US GAAP 250 ot
                                              any other appropriate regulation to aiJaw Aurum to:

                                                  •   Restate and re-submit the FSRs for the budget period under review and the following
                                                      budget period

                                              in order t o properly and aowratety reflect the REPORTING ofcorrect ex;penditure in each
                                              budget period.


                                              These 6 items all arise as a resultof a single event. In a spirit of transparency and alignment to
                                              the principles of the audit. this event.. and the Major ttems matter foDowing in the next section
                                              below were brought to the attention of the auditors right up front when the audit oommenc;ed.

                                              All transactions relating to Administratiw, LabocatOIY and Labour costs were re lated to 1
                                              journal entry passed on the restricted PHEfunds atthe end of grant year 3 (See detail in
                                              Appendix 2). During year 3 of the CoAg (ending fJ'J/28/2010) funds were budgeted to be spent
                                              on three PHEs, however an amount of USO 843,333 r emained restricted based on the NOA
                                              dated 07/07/2010.
                                                                                                    Page 9 of 18




                                         -
who was relatively i.nexperieru::ed, mistakenly drew down cash from the rO.Oiri<.U;d
the grant via the PMS system. During ttle year end dose out. when it was realised that this
error had oocurred, Aurum was unaware of any mechanisms to repay the money into the PMS
.systems.

The financial team applied local y applicable International Financial Reporting Standards {IFRS •
lAS 37} principles and the journal transaction was passed to a-eate a provision for the future
expendnure in Aurum's books to ensure that the books of ac:count agreed with the FFR already
.::ubm.ittcd. The ~h w:a.:: ri""G fc:c~d to cn~rc th:::a t no .:anu:»l expenditure of ~v ~h ~
 made with the funds. This transaction appears in theac:oounting system as expensed but owing
to the funder. No expenditure was charged against the funds until the restriction was lifted on
19 July 2011 lsee Appendilc 2}. The actions taken, the journal entries, and verification of the
cash ring-fencing were explained and supported to the OIG audjtors at the time of audit.

ln summary the foUowing had occurred:
    1. 	 The portKln of the restricted PHE f unds amounting to USO 697,432; of the total PHE
         restricted funds of USD 843,333 were drawn down in error on 09/21/2010.
    2. 	 The restricted PHE funds drawn down were reported as spent for year of the grant to
         tie up w ith the FfR report.
    3. 	 To effea this. a journal was r.~ised to aeate a provision in Aurum' s books.
    4. 	 By raising a pr0Yis1on Aurum used the c:orrea accounting treatment on provisjons to
         achiell'e the following:
              a. 	 Ring fence 'the restrk:te<l PHE Funds separately
              b. 	 Represent -an obligation of the unspent PHEs Funds c:orrealy in temu of IFRS
                   relatinc to !Pfovisions
    S. 	 So these funds were not actuaiJy spent but rather incorrKtty reported as spent.

We conc;ede that this treatment of the draw down errorwas incorrect but was nonetheless a
                                                                                                  Page 10 of 18




following year. The rorrea auounting treatment wouJd have been to dedare the funds
l.W'Iobligated due to the restriction.

The auditors investicated the bank auount holdings of Aurum at tne time of the audit to verify
that the funds were in fact being held.

ln tne followiogyear after the restriction was lifted, expenditure was applied to the provision
and not the grant. We did not spend any funding until the restriction was removed after the
necessary protocol approvals were obtained.

We propose that the CDC give c:onsideration to remediation of the matter by permitting a
correa;on in tenns of GAAP 250 or any other appropriate regulation to:

        Restate and re-submit the FSRs for the budget period under review and the foUowing
        budget period

in order to properly and aocuratety reflect the REPORTING of'orrect expenditure in eadl
budget period.

We haw also responded to the c;ausative issue of drawdown of restricted funds in the policy
and proc.edure section below.

Following this incident. the Adine Head of Finance was not appointed to the permanent
position of Head of Fina~ (HOF}. He c.onsequendy re~ed and left the organisation. A new
HOF with qualifiQtion.s equivalent to those of a US Certified Public AGoountant was appointed
on 4 January 20U. Subsequent to these events, we have sent our financial staff working with
PEPFAR funding toCDC/USAIO training on grant financial management and reporting during
the oourse of 2012.
                                                                                                                                       Page 11 of18




Major Items Costs   1   $858,659   OONCUR -The expenses relate to the followiog budget period (year 4 of the grant) but were
                                   repon.ed in the budget period under review (year 3 of the grant). Whilst we e"e<l by not
                                   reporting i n ac;c;ordance with US regulations, we were acting in good faith with respea to the
                                   programmatic objectives ofP£PFAR in South Africa. We sought to prevent that the funds were
                                   disbursed wastefulty or in abuse ofthe PEPFAR objectives. In that light. we request to oonect
                                   the finaocial reporting and program approval in order to re<:tify the errors sirw::e repayment of
                                   this amount would not best serve the interests of PEPFAR and shoukl not be necessary.

                                   SUMMARY OF PROPOSED CORRECTION:

                                   We Pfopose that the CDCcive oonsideration to permit a c;orrection in terms of US GAAP 250 or
                                   any other appropriate regulation to:

                                       •   Re-submit tile FSRs for the budget period under review and the follow;ng budget

                                       .   period and/or
                                           Make an application in retrospect for a carryover of the amou.nt

                                   in order to properly and aowratety reflect the correct REPORTING of expenditure in each
                                   budget period and to COfTe:c:ttyapportion the workwas done.



                                   This item was disc:ussed extensiwly with the auditors at the time of the audit and arose in
                                   similar fashion to the transaction above.

                                   On 1 September 2010we met with the Branch Chief: <:are & Treatment and Projea Offic;e.r-·
                                              . to discuss a range ofmatters including the extension of the T8 i ntensive case
                                   finding exercise already bei ng ronduct:ed in the programme to the very high risk group of gold
                                   miners. It was agreed by              that, in light ofa major national roncern around TB in the
                                   mines and CDC's role in mampioning the response to the epidemic levels of disease, this effort
                                   shouJd be rommenced and the numbers screened and cases detected reported. in the ensuing
                                                                                                    Page 12 of 18




quarterty reports. Minutes of this meetingwere provided to the auditOfS {attached hereto as
AppendO< 3).

ln light of the fact that the decision was taken in the last 30 days of the budget period~ the
same inexperienGed Aainc: Head ofFinance drew down funds from the PMS although the work
was to be carried out in the nelCt budget period. On noting the error, Aurum reviewed the
regulations reLJtinc: to allogtion of costs [Circular A·122 Attadunent A. A2(a)(,)(d)(e)(c)] and
lntemational Financial Rep.arting Standards (IFRS-lAS 37}, the overarchinggrant period, and
concluded that a formal provision for the work should be raised in our accounts to ensure a
matd'l with the FFR a lready submitted. This provision was duly raised and reported' as
expensed aC<J~inst the grant in view of the ongoing nature of the gr.mt into the nelCt year. Our
interpretation of subsections 3 and 4 ofAttaG:hment A of Circula r A·U2 as well as the detailed
review of an our provis.ions by our auditors gave furthe.r impetus t o this erroneous impression.

The auditors investigat e-d the bank account holdings ofAurum at tne time of the audit to verify
that the funds were in fact being held.

Whilst we agJee ~we have made an e rror in reponing this, we nonetheless oodertook the
work in good faith in the ensuing budget period and reported 13,708 people screened and 729
TB cases detected in the ensuing budget period.

In the context of:
     • 	 the owrall grant period and project period continuing beyond the budcet period under
         review;
    • our interpretations of the regulations above;
         the commission by Aurum of a bona fide error of a t echniQI nature whftm was not
         prejudicial to the programme; 

         the matterbeinc in no way prejudicial to the project oroverall grant period; and 

     • 	 the owrarc:hinc programmatic objectives of t:l\1! CDC and PEPFAR in South Africa to
         which Aurum was and is fulty committed.
                                                                                                                                                          Page 13 of 18




                                                     We PfOpose that the CDCgive c.onsideration to permit a c;orrection in tenns of US GAAP 250 or
                                                     any other appropriate regulation to:


                                                         •   Re-submit the FSRs for the budget period under review and the follow;rc budget
                                                             period and/or
                                                         •   Make an application in retrospect for a carryover of the amou.nt (Appendix 3)

                                                     in order to properly and aowratety reflect the correct REPORTING of expenditure in eac:h
                                                     budget period and to cone:c:ttyapportion the workwas done.

                                                     We have also responded to the foundational issue of allowability and aUocability of costs in 1he
                                                     policy a.nd procedure section be~w . Subsequent to these events, we 1\ave sent our financ:ial
                                                     staff working with PEPFAR fundinc to CDC training on grant financial management and
                                                     reoon:ine durint the c.ourse of 2012.
Total                         17        $1,690,605   Although these errors are s ignificant from a reportiog perspec;tive, they were made in good
                                                     faith with respect to the programmatic objectives of PEPFAR in South Africa. We sought to
                                                     prevent that the funds were disbursed wastefully or in abuse of the PEPFAR objectives. In tl\at
                                                     llght.. we request to rorrect the financial reporting and program approval in order to rectify the
                                                     errors since repayment of t h.is amountwould not best serve the interests of PEPFAR and
                                                     shouJd not be neussary.
Table 1. UnaUowable Frnanc1al Sample TransaCtions
                                                                                                                                                               Page 14 of 18




Financial Status Reporu

A grantee•s financial management reponing system must be able to demonstrate an accurate, current, and complete disclosure of frnancia l results ofgrant
funded activities in accordance w ith financial reporting requirementsofthe grant (4-5 CFR § 74.21 (b){l )). Pursuant to the GPS (Section 11-114}, financial
reports must be stated in U.S. dollars using the currency rate in effect at the time of submtssioo.

The FSR that Aurum submitted did not agree with its accounting records. Aurum used Microsoft Excel spread sheets to conwrt its cooperative agreement
transactions recorded in the South African Rand into U.S. dollars to aeate the FSR. The FSR was not accurate because of errors madewhile recording
convened amounts on the spreadsheet. As a result, Aurum ove-r-reported expenditures on the FSR for the cooperative agreement by $5,462. Acldrtionaltv,
Aurum did not use the applicable exchange rate in effect at the time it prepared the FSR. Instead, it used a standard exchange rate factor of7.5 rand to Sl.
When the recipients submit inaccurate FSRs, neitherthe recipient nor the awarding agency can properly manage the awards.



AURUM COMMENT:

CONCUR - We c.oncur with the fact of a difference of $5,462 on romparing the FSR to the General ledger. This represents a variance of 0.03" against the
grant and arises from a late adjustment post to the General ledger post submissio.n of the FSR (see Appendilt 4 for details of the transaction c.onumed)
and not from errors in the use of intennediate spread sheets. The FSR is prepared well before Aurum's statutory audit and our own auditors sometimes
require small adjustments to the general ledgerto meet w ith local audit requirements which may gjve rise to the slight variance two years afterthe
closure of the period in our books. This difference can be resolved if the proposed restatement of FSRs set out above ate agreed t o by the CDC.
                                                                                                                                                             Page 15 of 18




Cash Advances Analysis

Cash advances to a recipient must be limited to the minimum amounts needed and be timed to be i-n accordance with the actual, immediate cash
requ.irements of the recipient in canying out the purpose of the approved program or project. The timing and amount of cash advances shall be as dose as
is administratively feasible to the actual disbursements by the grantee. (45 CFR § 74~22(b}(2)) . Recipients must maintain advances of Federal funds in
interest-bearing accounts unless the recipient meets one of the regulatory exceptions 16).

Cash advances that Aurum received were not atways tied to its immediate cash needs. {See Table 2.)

              Date Aurum Received        Cash Advance Amount       £artiest Possible        Number ofDays
              cash Advance                                         Date 'TN!t Aurum         That Aurum Held
                                                                   Used cash                Cash
              October2, 2009            $1.08 million              Februa.ry 22, 2010       At least 143 days
              NO\Iefllber 5, 2009       $0.69 million              February 22, 2010        At least 109 days
               Table 2 : Examples of ExcessiVe cash Balances

The examples presented in Table 2 show that Aurum requested cash in excess of its immediate needs and carried the balance for lengths oftime much 

greater than necessary. Aurum frequently requested and received cash advances wi:thout considering the ooused baJance ofprevious advances. These two 

examples also assume that the costs Aurum reported were actually incurred for the cooperative agreement in the recent grant period. 

In addition, Aurum did not maintain the cash advances in interest-bearing accounts, as required. 



AURUM COMMENT:
CONCUR- Aurum c:onrurs with the validity of this finding alld has put measures in place whic:h aim to ensure that this does not happen in fut ure. These
particu.lar ouurrences were explained at the time of audit to be due to an employee in an acting position doing the draw downs and not ensurinc
matchingw ith expenditure. Cash flow forecasts were being incone<:tty prepared and there was a lad of dearunderstanding of grant regulations. Both
events reported oc:curred prior to the appointment of Aurum~s new HOF.

The audit team a lso noted in the audit feedba<:k meeting that this only occurred early in the award period and was remedied on the appointment ofa
new Head of Finance at Chartered A«<untant level {equiva.lent to the US Certified Public Auountant} wt.o took control of the cash management
system. Aurum has a cash flow and PEPfAR drawdown policy in place whic:h was implemented' by the CFO after the drawdown errors above had been
identified. This policy was given to the auditors - see Appendix 6.

W nh r espect to the find ing of holding funds in interest bearine ac:c;ounts, Aurum rec::ognises and respects the audit finding a.nd will endeavour to rompty
in future transaaions.
                                                                                                                                                                     Page 16 of 18




DETAil OF ANOINGS-PROGRAM MANAGEMENT

Federal Regulations a nd F111ding Opportunity Announcement 

Pursua nt to 45 CFR § 74.51 {d){ 1 ), progress reports should contain a compa rison of actual a«ompfishments to the objectives established for the period. 

Also, progress reports should contain the reasons that a ny established objectives were not met a nd additionaJ pertinent information, including, when 

appropriate, a nalysis a nd explanation of cost OWfnlnsor high unit costs. Additionally, the FOA states tllat Aurum should have measurable outcomes that 

are in alignment with the performance goals. 


pmrrm Ae99'1 !eairc 

Of the 30 objectives that we sampled from Aurum's application for t hecooperative agreement, the progress report a ddressed accomplishments fOf' 14. 

Although Aurum had documentatio n suppon:iog all30 objectives, it dKt not address the remaining 16 in its progress report {See Table 3.) 


                                 Objectives                         Sample
                                                                  Transactions
               Fourteen Reponed fn the Progress Report:
                      Completely Accomplished                                 2
                      Panially Accomplished                                  12

               Sixteen Not Reported in the Progress Report:
                       Completely Accomplished                                4
                       Pa rtially Accomplished                               12

               Total                                                         30
                Table 3. Progress Repon Accomplishments Summary

Of the 14 objectivesthat were addressed in the progress report, 2 we re completed ancl12 were only pa.ni"ally completed. Although Aurum encountered
some difficulties during the year and discussed them in their progress report, they did not specifically state which of the established objectives were
affected by the diffi culties. For exa mple, Aurum stated that it had difficulty in hiring staff members who were w illing to relocate to remote areas, but it did
not describe w hich objective was affected by this staff relocation diffkulty.
                                                                                                                                                             Page 17 of 18




Of the 16 objectives that the progress report did not address, 4 were accomplished but 12 were only parti-altv accomplished. For example, Aurum stated in
its application that it would train 360 nurses in counselling and HTV testing during the year. However, documentation supported training foc only 269
nurses.


AURUM COMMENT'
CONCUR- Sinu inception of Aurum's participation in the PEPFAR program, Semi-Annual (SAPR} and Annual Progress Reports (AAR) were atways
submitted in a large.ly narrative format highfighting the ac:tivities ofthe prtor period. Detai~d programmatic perlormance data was uploaded quarterly
and annually to the central PEPFAR DataWarehouse (now redesigned and referred toas PIMS) - this: is done as a PEPFAR requirement. Since these
repons were submitted in draft to the ProiKt Offic;er, reviewed and cou Kted prior to submission to- PGO, we had no reason to believe tl\at they did
not meet the requirements of the NOA and reguJations.

Subsequent to the arrival ofa new Branch Chief and Project Offic;er,                    , towards the end ofthe period under review, the whole approactt
to reporting in the SAPR and APR was signifi cantly upgraded to meet the standards set out in these audit find;ngs. A comparison of the 2010-2011 APR
{attac:hed to this response as Appendix 5} to the ones prior to that demonstrates that Aurum has taken the necessary corrective action already to
address this finding_. Spec:ifically,. emphasis has been placed on quantitative reporting and explanation ofvariances in recent reports as required by the
FOA/NOA. Other quantitative data are submitted via the PIMS system, but the SAPR a nd APRs are stiU submitted; to the Activity Manager for review
and correction prior to submission to PGO.

W Jth respect to objective a<:hievement.. a review ofgrant performance a.nd reporting was undertaken by Aurum in conjunction w ith the Project Officer.
As a consequence., the then PI on the grant was removed from his position and left the organisation after a forma l internal proc:ess.

NotwithstarKI'ing, the issue has been further addressed in the response to the poltcy and proudure fi-ndings section below.
                                                                                                                                                            Page 18 of 18




OETAILOFRNOINGS-INADEQUATEPOUCIESANDPROCEOURES

Aurum's policies and procedures did not address key fmancial and program management functions to ensure that it:
       reported on.ly aUowable expenditures under the coopel'illtiw agreement and accurate costs on its FSR,
       made cash advance requests ontv for meeting its immediate cash requirements to cany out the purpose of the cooperative agreement,
       maintained cash advances in iMerest bearing accounts,
       submitted the annual progress report t hat included accomplishments related t o all objectives that it had pursued underthe award, a.nd
       described in its annual progress report the reasons and other pertinent inf ormation on why cemin established objectives were not completely met.



 AURUM COMMENT: 

 It is rec;ognised thatthese findings derive from the findings above. Draft policies and proc:edures have been developed for each point in response to this 

 finding and are attaGhed hereto in Appendix 6 for approval by the CDC. 

